                 U.S. DEPARTMENT OF ENERGY
                OFFICE OF INSPECTOR GENERAL




              AUDIT OF DEPARTMENT OF ENERGY'S

              CONTRACTOR SALARY INCREASE FUND


     The Office of Inspector General wants to make the
 distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be
available electronically through the Internet five to seven
    days after publication at the following alternative
                        addresses:

         Department of Energy Headquarters Gopher
                     gopher.hr.doe.gov

      Department of Energy Headquarters Anonymous FTP
                    vm1.hqadmin.doe.gov

 Department of Energy Human Resources Administration Home
                           Page
            http://www.hr.doe.gov/ig

 Your comments would be appreciated and can be provided on
                            the
      Customer Response Form attached to the report.

           This report can be obtained from the
                 U.S. Department of Energy
      Office of Scientific and Technical Information
                        P.O. Box 62
                Oak Ridge, Tennessee 37831




Report No.: CR-B-97-02               Capital Regional Audit Office
Date of Issue: April 4, 1997         Germantown, Maryland 20874

              AUDIT OF DEPARTMENT OF ENERGY'S
             CONTRACTOR SALARY INCREASE FUNDS


                     TABLE OF CONTENTS
                                                             Page

            SUMMARY   . . . . . . . . . . . . . . . .         1

PART I -     APPROACH AND OVERVIEW . . . . . . . . .          3

            Introduction . . . . . . . . .   . . .       .    3

            Scope and Methodology . . . . . . . . . .         3

            Background   . . . . . . . . . . . .     . .      4

PART II -      FINDING AND RECOMMENDATIONS   . . . . .        6

            Controls Over Salary Increases   . . .. .         6

PART III -     MANAGEMENT AND AUDITOR COMMENTS     . .       12

PART IV -      APPENDIX A: Reports Issued by the Department of
               Energy's Office of Inspector General . . . . 15
                  U.S. DEPARTMENT OF ENERGY
                 OFFICE OF INSPECTOR GENERAL
                  OFFICE OF AUDIT SERVICES

               AUDIT OF DEPARTMENT OF ENERGY'S
              CONTRACTOR SALARY INCREASE FUNDS


Audit Report Number:   CR-B-97-01

                            SUMMARY


  The Department of Energy (Department) uses contractors to
operate its facilities and compensates contractor employees
based on their skills, complexity of jobs, and work
performance. Thirty-one of the Department's major
contractors reported a total payroll of $4.3 billion and
$4.4 billion during 1994 and 1995, respectively. The 31
contractors also reported awarding salary increases of $18
million for 1994 and $200 million for 1995.

  The purpose of the audit was to review the process used to
determine and approve the amount of salary increases for
contractor employees. Our specific audit objective was to
determine whether salary increases received by contractor
employees were in accordance with Departmental policies and
procedures.

  The Department of Energy Acquisition Regulation (DEAR)
requires that contractor salary actions be within specific
limitations, supportable, and approved prior to incurrence
of costs. In addition, the Secretary of Energy imposed a 1-
year salary freeze on the merit portion of management and
operating contractor employee salaries for each contractor's
Fiscal Year 1994 compensation year. However, a fund for
promotions and adjustments was approved but limited to 0.5
percent of payroll for the year. A review of eight major
contractors showed that six complied with the Department's
policies on salary increases. The other two gave salary
increases that were not always in accordance with
Departmental policies. This resulted in both contractors
not fully complying with the pay freeze in 1994 and
exceeding their salary increase fund budgets in 1995. If
these two contractors had implemented Department and
contract requirements and contracting officers had properly
performed their contract administrative responsibilities
concerning salary increase funds, both contractors would
have frozen salary increases and would not have exceeded
their annual budgets.

  We recommended that the Oakland Operations Office require
(1) contracting officers and contractors to define which
employees will be included in the salary increase fund, (2)
contractors to implement contract terms, and (3) contracting
officers to enforce contract terms and properly monitor
salary increase funds. Further, we recommended the
recoupment of unallowable costs of about $1.1 million at
Livermore and about $267,000 at Berkeley in Fiscal Year 1994
and that a determination be made on the $3.4 million of
questionable costs for Fiscal Year 1995.

  The Manager, Oakland Operations Office, disagreed with the
amount of unallowable costs identified in the finding but
agreed with two of the three recommendations. Although
management agreed that there were unallowable costs for
1994, they did not agree to the amounts as stated in the
report and did not agree that there were any unallowable
costs for 1995.




_____(Signed)______________
Office of Inspector General


                              PART I

                    APPROACH AND OVERVIEW


INTRODUCTION

   The Department of Energy (Department) uses contractors to
operate its facilities and compensates contractor employees
based on their skills, complexity of jobs, and work
performance. The Department has established a process for
authorizing and approving an annual salary increase fund for
each contractor to enable them to retain a quality work
force that is competitive with industry. In May 1993, the
Secretary of Energy froze management and operating
contractor employee salaries for each contractor's Fiscal
Year 1994 compensation year. Also, the fund for promotions
and adjustments was limited to a maximum of 0.5 percent of
payroll for the 1-year period. Thirty-one of the
Department's major contractors reported a total payroll
(excluding overtime and benefits) of $4.3 billion and $4.4
billion during 1994 and 1995, respectively. The 31
contractors also reported awarding salary increases of $18
million for 1994 and $200 million for 1995.

   We reviewed the process used to determine and approve the
amount of salary increases for contractor employees. The
audit objective was to determine whether salary increases
received by contractor employees were in accordance with
Departmental policies and procedures.

SCOPE AND METHODOLOGY

   To accomplish our objective, we obtained and reviewed
applicable Federal and Department regulations and
correspondence related to contractor salary increases. We
also reviewed related reports issued by the Office of
Inspector General (Appendix A) and the General Accounting
Office. Discussions were held with staff from the Office of
Contractor Human Resource Management and cognizant
operations/field officials at each site visited. These
discussions covered the policies and procedures in effect to
control salary increase funds.

   We obtained information on payroll costs, number of
employees, and salary increases from the operations/field
offices for 31 of the Department's major contractors for
1994 through 1996. The information included the percentage
of payroll authorized for salary increases along with the
dollar amounts for budget and actual salary increases. We
judgmentally selected 8 of the 31 contractors for a more
detailed review. These eight contractors had a total
payroll of $1.5 billion in 1994 and $1.4 billion in 1995 and
reported salary increases of $5.8 million and $54 million
during 1994 and 1995, respectively.

   Site visits were made to four of the eight contractors.
These contractors and locations were: TRW Environmental
Safety Systems, Inc. in Fairfax, Virginia; Lawrence Berkeley
National Laboratory in Berkeley, California; Lawrence
Livermore National Laboratory in Livermore, California; and
Westinghouse-Bettis in Pittsburgh, Pennsylvania.

   Our analysis included:

   o Reviewing actions taken by the Department to monitor and
     approve contractor salary increase funds.

   o Verifying that management and operating contractors
     complied with the salary freeze imposed by the Secretary and
     determining whether any salaries were increased in the
     following years to negate the savings resulting from the
     freeze.

   o Verifying the accuracy of payroll, budget and salary
     increases, and the actual amount of the salary increase
     funds for 1994 and 1995.

   The audit was made in accordance with generally accepted
Government auditing standards for performance audits and
included tests of internal controls and compliance with laws
and regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed internal controls
regarding salary increase expenditures. Because our review
was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed.

   The audit was performed between May and December 1996.
We used computer-processed data obtained from contractor
personnel and payroll data bases. Although we did not fully
examine the reliability of each data base, specific payroll
data was traced to individual personnel records to test its
validity.

   An exit conference was held with representatives of the
Oakland Operations Office on March 24, 1997.

BACKGROUND

   Every year the Department approves a salary increase fund
for each contractor to enable them to retain competent and
productive employees. (For this report, salary increase
fund is used in the same context as salary increase
authorization.) To aid the Department in determining each
contractors annual budget for their salary increase fund,
contractors provide information such as hiring and turnover
rates and survey data from reputable sources. The survey
data includes salaries in the market for comparable
industries, occupational responsibility, and geographic
locations. The final budget amount is derived from a
percentage of total payroll at a point in time.

   In May 1993, the Secretary of Energy imposed a 1-year
salary freeze on all management and operating contractor
employees, which was in line with the Administration's goal
for savings in Government funded operations. The freeze was
effective for each contractor's Fiscal Year 1994
compensation year beginning any time between October 1,
1993, and September 30, 1994. All employee salary
increases, except those covered by collective bargaining
agreements, employees hired during Fiscal Year 1994, and
increases based on the attainment of an essential credential
(e.g. reactor operator certification) were affected by the
freeze. Any exception to the pay freeze required
Headquarters approval and, in most cases, required approval
by the Secretary. However, contracting officers were
allowed to approve a fund for promotions and adjustments for
Fiscal Year 1994. An adjustment is an increase that is not
for merit or promotion. This fund was limited to a maximum
of 0.5 percent of payroll for each contractor.

   This report contains a finding that addresses controls
for contractor salary increases that should be considered by
management in preparing the yearend assurance memorandum on
management controls. Part II of this report provides
details on our finding and recommendations. Part III of
this report includes detailed management and auditor
comments.


                           PART II

                 FINDING AND RECOMMENDATIONS

               Controls Over Salary Increases


FINDING
   The Department of Energy Acquisition Regulation (DEAR)
requires that contractor salary actions be within specific
limitations, supportable, and approved prior to incurrence
of costs. In addition, the Secretary of Energy imposed a 1-
year salary freeze on the merit portion of management and
operating contractor employee salaries for the Fiscal Year
1994 compensation year. Two of eight contractors gave
salary increases that were not always in accordance with
Departmental policies. Lawrence Livermore National
Laboratory (Livermore) and Lawrence Berkeley National
Laboratory (Berkeley) did not properly charge all salary
increases to their increase funds. This occurred because
these contractors did not implement and contracting officers
did not enforce contract and Department requirements, and
contracting officers did not properly monitor salary
expenditures. As a result, both contractors did not fully
comply with the Secretary's pay freeze in 1994, which
resulted in unallowable costs of about $1.1 million at
Livermore and about $267,000 at Berkeley. Also, both
contractors incurred questionable costs in 1995, about $2.6
million at Livermore and about $831,000 at Berkeley, by
exceeding their salary increase budgets.

RECOMMENDATIONS

   We recommended that the Manager, Oakland Operations
Office, require the contracting officers at Livermore and
Berkeley to:

     Implement DOE Order 350.1, Chapter 5, by working with the
     contractors to mutually define and document which employees
     will be required to be included in the salary increase fund.

     Enforce contract terms and properly monitor salary
     increase funds to ensure budgets are not exceeded and all
     required employees are included in the fund.

     Take appropriate action at Livermore and Berkeley to
     recoup the $1.1 million and $267,000, respectively, of
     unallowable costs for 1994. Also, review the questioned
     costs for 1995 and, based on this determination, recoup any
     amount that is determined to be unallowable.

MANAGEMENT REACTION

   The Manager, Oakland Operations Office, agreed with
recommendations 1 and 2 and partially agreed with
recommendation 3, but disagreed with the determination of
the amount of unallowable costs. Although management agreed
to begin the process to recoup the unallowable costs for
1994, it did not agree with the amounts as stated in the
report. Also, management did not agree that the 1995
questioned costs were unallowable.



                      DETAILS OF FINDING
SALARY INCREASE POLICIES

   To ensure that contractors' salaries are kept at
competitive levels, the Department authorizes and approves
an annual salary increase fund. The fund is calculated as a
percentage of the contractors payroll and, when approved,
becomes the budget for the contractors annual salary
increases. For Fiscal Year 1994, the Secretary of Energy
froze the merit increases for management and operating
contractor employees and limited the salary increase fund to
0.5 percent of payroll for promotions and adjustments.
Employees covered by collective bargaining agreements,
employees hired during the pay freeze, and increases based
on the attainment of an essential credential were excluded
from the freeze. Because of the freeze, a salary increase
merit submission was not required in 1994; however, each
contractor was required to provide detailed reports to the
Department, on a quarterly basis, showing the promotion and
adjustment expenditures.

   DEAR 942.002 states the Department shall monitor its
contractors to ensure compliance with the terms and
conditions of the contract. This would also ensure that all
applicable promotion, merit increases, and adjustments are
charged against the salary increase fund. The DEAR also
states that labor policies of the Department's contractors
should be designed so that contractors salaries are
competitive with industry practices and reasonable for the
work performed.

   DOE Order 350.1, Contractor Human Resource Management
Programs, issued September 30, 1996, requires that the Heads
of Contracting Activities have procedures in place to verify
the accuracy of the contractors' annual report on salary
increase expenditures prior to reimbursement by the
Department. Each contractor is required to track its
expenditures of the salary increase fund and prepare an
annual report of the expenditures for the contracting
officer. Also, the specific groups of employees to be
included in the salary increase fund are to be defined by
mutual agreement between the contracting officer and
contractor.

SALARY INCREASE FUND

   Contractor employees received salary increases that were
not always in accordance with Departmental policies and
procedures. Although, six of eight contractors reviewed
were in compliance with the established policies and
procedures, problems existed at two contractors who did not
charge all salary increases to their increase funds.

Salary Increase Fund Requirements

   Livermore and Berkeley did not properly charge all
employee salary increases to their increase funds.
Headquarters personnel informed us that all salary increases
should be charged to the fund unless the increase was for an
employee in a step progression program, an indeterminate
employee, or employees covered under collective bargaining
agreements. An employee in a step progression program
receives increases as skills are learned. Indeterminate
employees are those whose employment normally will not
exceed 2 years. These types of employees are usually
excluded from the increase fund. However, for 1994 the
Secretary imposed a pay freeze and only collective
bargaining unit employees, employees hired during the
freeze, and increases based on the attainment of an
essential credential (e.g. reactor operator certification)
were excluded.

   Livermore

   At Livermore, employees were categorized into two groups-
-accountable and nonaccountable. The accountable category
of employees consisted of scientists, engineers, technical
and administrative support. The nonaccountable category
consisted of apprentices, trainees, summer hires, graduate
students, and any employee who received an adjustment for a
change of status or conversion of workweek. When Livermore
submitted data for the approval of its annual salary
increase budget, only the accountable group's payroll was
used. When asked why employees were categorized into these
two groups, Livermore informed us that historically it had
always been done this way and was shown this way in its
internal salary program guidelines. However, neither the
contractor nor contracting officer could provide written
documentation to show that the Department had approved this
categorizing of employees that were excluded from the salary
increase fund.

   Based on Livermore's salary increase fund listings, 317
employees in 1994 and 519 employees in 1995 were categorized
as nonaccountable and received increases. However, these
increases were not charged against the salary increase fund.
Therefore, Livermore exceeded its approved budgets for the
salary increase fund in 1994 and 1995. We did not determine
whether Livermore would have been within its budget if these
nonaccountable employees had been included in the
calculations submitted for budget approval because the
necessary data was not readily available.

   Berkeley

   Berkeley categorized its employees into two groups--
represented and nonrepresented. The represented category
was union employees including service workers, clerical, and
skilled craftsmen. The nonrepresented category consisted of
temporary employees, student assistants, graduate students,
engineers, and scientists. Berkeley stated that only the
nonrepresented group of employees payroll was used when data
was submitted for the approval of its annual salary increase
budget.

   Based on Berkeley's 1994 salary increase data, 94
nonrepresented employees' salary increases were not included
in the budget or charged against its fund. This also
occurred in 1995; and because Berkeley compiled salary
increase data differently in 1994 due to the pay freeze, the
number of employees excluded from its fund in 1995 could not
be determined. We did not determine whether Berkeley would
have been within its budget if these nonrepresented
employees had been included in the calculations submitted
for budget approval because the necessary data was not
readily available. Also, neither the contractor nor
contracting officer could provide written documentation to
show that the Department had approved excluding some of the
nonrepresented employees from the salary increase fund.

Secretary's Pay Freeze Requirements

   By not charging all employee increases to its salary
increase fund, Livermore and Berkeley also did not fully
comply with all the requirements of the Secretary's pay
freeze.   Livermore and Berkeley did not limit the promotion
and adjustment portion of their funds to 0.5 percent for all
required employees and paid 317 and 94 employees,
respectively, promotions and adjustments that were not
included and approved in their budgets. These employees
should not have been excluded from the freeze because they
were not covered by collective bargaining agreements, new
hires, or the increases were not based on the attainment of
an essential credential. For example, although the Oakland
Operations Office had given Livermore written approval to
exclude six Oracle Programmers from the freeze, the
Secretary's guidance explicitly stated that any exceptions
to the freeze required Headquarters and, in most cases, the
Secretary's approval. Headquarters personnel informed us
that neither contractor received an exception to the pay
freeze for any of its employees. In addition to not fully
complying with the pay freeze, Livermore and Berkeley
exceeded their salary increase budgets.

IMPLEMENTATION AND CONTRACT ADMINISTRATION

   The contractors at Livermore and Berkeley did not
implement and contracting officers did not enforce contract
and Departmental requirements for salary increases. In
addition, contracting officers did not properly perform
their contract administration responsibilities concerning
salary expenditures.

Contractor Implementation of Requirements

   Under the requirements of both contracts, Livermore and
Berkeley were required to submit salary increase fund
proposals based on a percentage of their September 30 base
payroll and to report on salary increase expenditures
annually. For 1994, the Secretary modified the requirement
to quarterly reports. However, none of the quarterly
reports required during the pay freeze were submitted by
either contractor.

Contract Administration

   The Department did not fulfill all its contract
administration responsibilities concerning salary increase
fund expenditures. Although DEAR 942.002 requires the
Department to ensure all salary increases are charged to the
salary increase fund, Livermore was allowed to decide which
employees would be included in the salary increase fund from
year to year. Prior to the beginning of each compensation
year, Livermore prepared internal guidelines on the type of
employees that would be included and excluded in the salary
increase fund. Livermore sent a copy of its internal
guidelines to the Oakland Operations Office but did not ask
for nor received approval. Berkeley also prepared internal
guidelines, however, they only explained the categories of
employees and the payroll codes. They did not describe
which employees would be included in the salary increase
fund.

   Contracting officers also did not enforce all the
requirements of the pay freeze or contract terms. In a
memorandum, dated May 21, 1993, Headquarters informed the
Oakland Operations Office that contractors would be required
to provide detailed reports, on a quarterly basis, showing
the promotion and adjustment expenditures for the year
contractor salaries were frozen. However, the Director,
Human Resources Management Division at the Oakland
Operations Office, only advised Livermore and Berkeley that
a report was due on November 15, 1994. As discussed above,
neither contractor submitted reports tracking expenditures
during the freeze, and the contracting officers did not
question the contractors when the reports were not received.
In addition, contract terms required both contractors to
submit annual salary expenditure reports. Although both
contractors submitted the required annual expenditure
reports, we were informed by the contracting officers that
the annual reports were not reviewed.

IMPACT OF CURRENT CONTRACT ADMINISTRATION

   Of the eight contractors reviewed, two exceeded their
approved salary increase funds in 1994 and 1995. By
exceeding their budgets in 1994, Livermore and Berkeley did
not fully comply with the Secretary's pay freeze by limiting
promotion and adjustment increases to 0.5 percent of
payroll. Therefore, in 1994 both contractors incurred
unallowable costs, Livermore about $1.1 million and Berkeley
about $267,000 because 317 and 94 employees, respectively,
who were not included in the freeze, received promotion and
adjustment increases not charged against the salary increase
funds. Further, by excluding the increases for 519
employees from its salary increase fund in 1995, Livermore
exceeded its authorized budget by about $2.6 million.
Berkeley exceeded its authorized budget by about $831,000 in
1995.
                          PART III

               MANAGEMENT AND AUDITOR COMMENTS


   In response to this report, the Manager, Oakland
Operations Office, generally disagreed with the finding and
determination of the amount of unallowable costs. Management
believes that the majority of increases given at both
Lawrence Livermore National Laboratory and Lawrence Berkeley
National Laboratory fall under the umbrella of exceptions
allowed in the Secretary's 1994 pay freeze directive.
Management agreed with recommendations 1 and 2 and partially
agreed with recommendation 3. A summary of management's
comments and our response follows.

   General Comments. Management stated that four categories
of increases should have been constrained by the parameters
of the freeze directive. These categories were students
that were not officially terminated from the payroll at the
end of their session, executives, step structure employee
groups to merit structure positions, and technicians from
the 500 to 200 series at Livermore. Management also agreed
that post-doctoral students who simply received routine step
increases did not fall under the categories of exceptions to
the freeze. However, management stated that although
Headquarters approval was not given for these increases
because Oakland had given approval to grant increases to
these employees, Berkeley had acted in good faith.
Therefore, management does not plan to recover these
unallowable costs from the contractor. With regard to the
1995 pay practices, management stated that the exclusion of
certain categories of employees from the fund is consistent
with its intent, which is to provide a fund for the merit
increases of the consistent labor force as determined by
anticipated market movement. Management referred to a Task
Group Report for Interim Guidance on Industrial Relations
Functions issued by Headquarters in 1982. It states that
the fund is a pool of money approved annually by the
Department against which the costs of all pay increases ...
for permanent, non-bargaining unit personnel during the year
are charged.

   Auditor Comments. The Oakland Operations Office was
advised of the salary freeze by letter on May 21, 1993. The
letter outlined the specific requirements and effective
dates of the freeze. In the "Questions and Answers" dated
May 25, 1993, exceptions to the freeze were discussed along
with special approvals required for exceptions. Question 8
specifically answered that there would be very few
exceptions to the freeze and that all exceptions would
require Headquarters approval with approval by the Secretary
in most cases. Therefore, even though the Oakland
Operations Office knew in advance that they did not have the
authority to approve any exceptions to the freeze, approval
was given to the laboratories for certain salary increases
in 1994. The Oakland Operations Office should have
requested the required approval and, until it was received,
should not have allowed the contractors to pay certain
increases in 1994. The Secretary's guidance was very
specific, and if the contracting officers had been
adequately administering the contracts, these unauthorized
increases would not have occurred. With regard to the
salary increases for 1995, the Oakland Operations Office did
not provide any documentation to show that certain
categories of employees were approved to be excluded from
the salary increase fund. Instead, we were told it was a
long-standing practice at the laboratories that has just
been accepted by the Oakland Operations Office over the
years. However, just because it has been a long-standing
practice does not make it correct or allowable. Also, the
Task Group Report for Interim Guidance for Industrial
Relations mentioned that the field industrial relations
staff should discuss with Headquarters any types of
increases excluded from the salary increase fund to ensure
consistent treatment of employees by different field
offices.

   Recommendation 1. Implement DOE Order 350.1, Chapter 5,
by working with the contractors to mutually define and
document which employees will be required to be included in
the salary increase fund.

   Management Comments. Concur. Contracting officers at
Livermore and Berkeley will work with the contractors to
mutually define and document which employees will be
required to be included in the salary increase fund.
Anticipated date of completion is   June 1, 1997.

   Auditor Comments. Management's comments are responsive
to the recommendation.

   Recommendation 2. Enforce contract terms and properly
monitor salary increase funds to ensure budgets are not
exceeded and all required employees are included in the
fund.

   Management Comments. Concur. Contractors will be
required to submit annual reports of salary increase fund
expenditures for all employees included in the fund as
required by the contract. These reports will be reviewed by
the Oakland Operations Office to determine that the salary
increase fund budgets have not been exceeded.   Anticipated
date of completion is December 1, 1997.

   Auditor Comments. Management's comments are responsive
to the recommendation.

   Recommendation 3. Take appropriate action at Livermore
and Berkeley to recoup the $1.1 million and $267,000,
respectively, of unallowable costs for 1994. Also, review
the questioned costs for 1995 and, based on this
determination, recoup any amount that is determined to be
unallowable.

   Management Comments. Management agreed that there were
some unallowable costs for 1994, but did not agree to the
dollar amounts as stated in the report or that the
questionable costs for 1995 were unallowable. Management
previously stated that some information provided to us for
Berkeley was incorrect and would change the amount of
unallowables. Based on a management review, the unallowable
costs agreed to for 1994 were attributed to the increases
given to executives, employees going from the step to merit
structure, technicians going from the 500 to 200 series at
Livermore, and employees within student accounts.
Management plans to identify the specific unallowable costs
and begin the process to recoup them. Management also
stated that they have reviewed the questionable costs for
1995 and determined that all such costs were allowable.

   Auditor Comments. The 1-year salary freeze imposed by
the Secretary of Energy was very restrictive and specific on
any exceptions to the freeze. Any exceptions to the freeze
required Headquarters approval and, in most cases, approval
by the Secretary. All employee salary increases, except
those covered by collective bargaining agreements, employees
hired during the freeze, and increases based on the
attainment of an essential credential were frozen in 1994.
Therefore, any employee that did not fall into one of these
three categories should have had their salaries frozen in
1994. Any exception should have received approval from
Headquarters, not the Oakland Operations Office. We
acknowledge management's previous comment that they provided
us with incorrect information for 18 clerical employees that
will reduce the amount of unallowables at Berkeley.
However, taking this into account, all other employee salary
increases identified in the report for 1994, unless they
fall into one of the three categories of exceptions, should
be considered unallowable.

   The questioned costs for 1995 were for costs incurred in
excess of the approved budget for salary increases.
Retroactive approval of increases does not encourage
contractors to use the budget to contain costs.
                                                  APPENDIX A


                            PART IV

        Reports Issued by the Department of Energy's
                 Office of Inspector General



Report Number                           Report Title


DOE/IG-0332     Inspection of the Department of Energy's
               Procedures for Administering Contractors'
               Executive Employees' Compensation

DOE/IG-0266    Salary Administration Practices Sandia
               National Laboratories, Albuquerque, New Mexico

WR-OC-89-04    Nevada Operations Office's Oversight of
               Reynolds Electrical and Engineering Company
               Administration Practices

ER-OC-88-12    Review of the Salary Increase Fund at the
               Brookhaven National Laboratory

ER-OC-88-11    Chicago Operations Office Management of
               Salary Increase Funds

ER-OC-88-04    Review of the Salary Increase Fund at the
               Argonne National Laboratory

                                IG Report No.CR-B-97-02


                   CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing
interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please
include answers to the following questions if they are
applicable to you:

     1.   What additional background information
          about the selection, scheduling, scope,
          or procedures of the audit or inspection
          would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to
          findings and recommendations could have
          been included in this report to assist
          management in implementing corrective
          actions?

     3.   What format, stylistic, or organizational
          changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have
          been helpful?

Please include your name and telephone number so that
we may contact you should we have any questions about
your comments.

Name ____________________________
Date_____________________

Telephone _______________________
Organization_____________

When you have completed this form, you may telefax it
to the Office of Inspector General at (202) 586-0948,
or you may mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments
with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
